BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for a Writ of Certiorari in Tony
Mays, Warden v. Anthony Darrell Dugard Hines, was
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent via Next Day Service and e-mail
to the following parties listed below, this 13th day of
October, 2020:
Amy D. Harwell
Federal Public Defender's Office
810 Broadway
Suite 200
Nashville, TN 37203
(615) 736-5047
Amy_Harwell@fd.org

Counsel for Respondent
John H. Bledsoe
Deputy Attorney General
Counsel of Record
Office of the Attorney General
P.O. Box 20207
Nashville, TN 37202
(615) 741-4351
john. bledsoe@ag.tn. gov

Counsel for Petitioner

: BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 13, 2020.

Emily Mfillin s
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date: ( }tz;j'KJ,l,l

13 ;) 0 d"O

Jul,i, /1 , ~

Notary Public
[seal]

